<html>
<title> - STATE DEPARTMENT'S COUNTERTERRORISM BUREAU</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                          STATE DEPARTMENT'S 
                        COUNTERTERRORISM BUREAU

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 2, 2015

                               __________

                           Serial No. 114-75

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                  ______
                                 
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE
 94-834PDF                       WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York
    

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York






                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Charles Johnson, Jr., Director, International Security 
  Issues, International Affairs and Trade, Government 
  Accountability Office..........................................     4
Mr. Justin Siberell, Deputy Coordinator for Regional Affairs and 
  Programs, Bureau of Counterterrorism, U.S. Department of State.    33

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Charles Johnson, Jr.: Prepared statement.....................     6
Mr. Justin Siberell: Prepared statement..........................    36

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59
Written responses from Mr. Justin Siberell to questions submitted 
  for the record by the Honorable Ted Poe, a Representative in 
  Congress from the State of Texas, and chairman, Subcommittee on 
  Terrorism, Nonproliferation, and Trade.........................    60


                          STATE DEPARTMENT'S 
                        COUNTERTERRORISM BUREAU

                              ----------                              


                         TUESDAY, JUNE 2, 2015

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. This subcommittee will come to order. Without 
objection, all members will have 5 days to submit statements, 
questions and extraneous materials for the record, subject to 
the length limitation in the rules.
    Two weeks ago ISIS had one of its most successful weeks, in 
Syria took over an ancient city, Palmyra, located in the center 
of the country. The city is known for its archeological gems 
that date back to the Romans. In Iraq, ISIS took over Ramadi, 
the capital of the Anbar Province.
    Losing a city in the Sunni heartland caused many to 
question the administration's strategy in this part of the 
world. Defense Secretary Ash Carter remarked that the Iraqi 
troops<greek-l>, quote, deg. ``had lost the will to 
fight.''<greek-l>end of quote. deg. The battle for ideas isn't 
looking much better. Thousands of foreign fighters continue to 
leave their home countries to fight for ISIS in Iraq and Syria. 
Those who don't go to Iraq and Syria have been happy to pledge 
allegiance from afar.
    ISIS now has 10 networks outside of Iraq and Syria. Three 
in Libya, two in Saudi Arabia, one each in the Sinai, Nigeria, 
Yemen, Algeria, in the Khorasan, in Pakistan and Afghanistan. 
From pulling off two successful suicide bomber attacks in Saudi 
Arabia in as many weeks to taking advantage of the fall of the 
government in Yemen and the lawlessness in Libya, each of 
ISIS's 10 networks are getting stronger, they are not getting 
weaker.
    Terrorists now control more land than at any time since the 
end of World War II. In the midst of this struggle lies the 
State Department's Counterterrorism Bureau. Originally set up 
as an office back in 1972 in response to the terrorist attack 
at the Olympic Games in Munich, Germany, it became its own 
bureau in 2012. The primary mission of the Bureau for 
Counterterrorism is to forge partnerships with non-state 
actors, multilateral organizations and foreign governments to 
advance the counterterrorism objectives and national security 
of the United States.
    Under that broad mission it has five principal 
responsibilities. One, countering violent extremism; two, 
capacity building; three, counterterrorism diplomacy; four, 
U.S. counterterrorism strategy and operations; and lastly, 
homeland security coordination. Even though the Bureau accepts 
the idea that it should be spending 3 to 5 percent of the 
program's resources on monitoring and evaluation, it has no way 
of tracking how much it actually is spending so it can know if 
it is meeting that goal.
    Over the last 5 years, the Bureau has only completed four 
evaluations. It seems to me it needs to be doing a whole lot 
more. Most of the money that the CT Bureau spends is on 
capacity building. From 2012 to 2014 it spent $191 million on 
building the capacity of 53 partners through antiterrorism 
assistance. But of these three partners it has only evaluated 
two countries. The CT Bureau is having trouble learning from 
the four evaluations it has done in the past. The Bureau has 
only implemented half the recommendations made by the 
evaluation and has no timetable for when it will implement the 
other half. The Bureau has never done or does it have any plans 
to do impact evaluation. The only kind of evaluation it can 
really tell us, if American money made a difference or not.
    While it struggles to properly evaluate its programs, the 
CT Bureau is asking for four times more money than it received 
in the budget last year. The Bureau wants money for a 
counterterrorism partnership fund, but it can't give Congress 
any specifics on how it plans to spend the money let alone how 
the money will be evaluated that is spent.
    There are also problems with how the CT Bureau is spending 
the money it already obtains from the taxpayers through 
Congress. According to the GAO, every year since 2012, the CT 
Bureau has failed to fill staff positions Congress has 
authorized it to have. The vacancy rate on unfilled positions 
has hovered around 20 percent every year, but every year since 
2012, the CT Bureau keeps asking Congress for more money to 
authorize more staff positions. Why should Congress grant this 
request when the Bureau cannot fill the positions Congress has 
already given it?
    Recently the administration has started emphasizing the 
term ``preventing violent extremism,'' or PVE, more than 
``countering violent extremism,'' or in the vernacular, CVE. 
PVE says that everything to women's right to education to 
health care is important to prevent violent extremism. The 
question arises, is this the duty of the Bureau to try to 
eliminate poverty, health care issues, create jobs under this 
authorization?
    The problem with PVE is that could include almost anything 
that PVE wants to spend the money on as opposed to strictly 
counterterrorism operations. It is difficult to know what the 
definition means when it covers so many issues. It is also 
unclear what the shift from CVE to PVE means for the Bureau 
which used to take the lead on counter or CVE efforts.
    So at a time of limited resources and a terroristic threat 
that is increasing we cannot afford to have a squabble over who 
is in charge or a questionable commitment of evaluating how we 
are spending American money, and that is the purpose of this 
hearing today so we can get to the bottom of all of this.
    And I will yield to the ranking member Mr. Keating.
    Mr. Keating. Thank you, Chairman Poe, for conducting this 
hearing. I would also like to thank our witnesses Mr. Johnson 
and Mr. Siberell for being here today to discuss the State 
Department's Counterterrorism Bureau. As we know, to degrade 
and ultimately defeat a foreign terrorist organization like 
ISIL or al-Qaeda we need to cut off its supply of money, 
manpower and support. Specifically, we need to improve our 
efforts to prevent the flow of foreign fighters to the Middle 
East, especially to Iraq and Syria.
    We also need to do a better job countering violent 
messaging to potential recruits, engaging with at-risk 
communities, and working to prevent radicalization. Further, we 
need to do more to restrict terrorist financing, whether it is 
financing it has obtained through taxes imposes on the 
population of occupied territories or through the sale of 
contraband such as trafficking in antiquities looted in Iraq 
and Syria.
    The United States can't do this alone. We have to work with 
our allies to reduce terrorist access to resources and support. 
The capacity building programs funded and coordinated by the 
State Department's Counterterrorism Bureau are the types of 
activities our Government needs to engage in. These programs 
are aimed at, for example, assisting our partners in 
counterterrorism law enforcement, counterterrorism financing, 
counter radicalization efforts, border security, and 
restricting terrorist travel.
    Already the Bureau has been hard at work to seek and 
address these critical objectives, and I know we will hear a 
lot in greater detail from Mr. Siberell later on. It is vital, 
however, that we ensure that funds appropriated to the 
Counterterrorism Bureau for these capacity building programs 
are being used wisely and the United States is getting a good 
return on our investment. To this end I welcome the 
participation of Mr. Johnson from GAO, look forward to hearing 
both of our witnesses to discuss this program, and I yield 
back.
    Mr. Poe. Thank you, gentleman. The Chair will yield 2 
minutes to the gentleman from California, Mr. Sherman.
    Mr. Sherman. I want to focus these 2 minutes on a big gap 
in the State Department--its failure to hire people who really 
understand Islam and the culture involved of the countries. 
There, last time we had these hearings and in subsequent 
hearings, the State Department has confirmed they haven't hired 
a single person who is hired because of their expertise in 
Islamic jurisprudence or scripture.
    And so when we go to try to do our counter propaganda, we 
are able to show that ISIS kills Yazidi women and children, but 
the target audience doesn't regard that as an anathema. We need 
pictures of al-Baghdadi eating a bacon sandwich. That, his 
target audience would find an anathema. But that is my limited 
understanding of his target audience. We need people on staff 
who can quote Hadith for Hadith, Sunnah for Sunnah, and we also 
need people who have grown up in the relevant countries, 
whether they be Muslims by faith or whether they even be 
members of the religious minorities who are easier to screen to 
be sure that they don't subscribe to the viewpoints of ISIS 
since there are very few Iranian Jews and Yazidis, et cetera, 
who are Islamic extremists.
    So we can still give the State Department 99.9 percent of 
the jobs can go to people who study well for the Foreign 
Service exam and have all the academic Brownie points and their 
Ivy League degrees or their A+s from Cal State, Northridge. But 
if \1/10\ of 1 percent were hired because they could have 
memorized the Qur'an and could apply it to the situations we 
face today, then we would be speaking the language of the 
target audiences. I yield back.
    Mr. Poe. I thank the gentleman. Without objection, all the 
witnesses' prepared statements will be made part of the record, 
and I would ask that each of our two witnesses keep their 
presentation to no more than 5 minutes inasmuch as we have your 
written statement.
    Charles Johnson, Jr. is a senior executive with the U.S. 
Government Accountability Office. As a director with GAO's 
International Affairs and Trade team, his portfolio focuses on 
U.S. efforts to counter overseas threats and international 
security issues. Thank you, Mr. Johnson, for being here. We 
will hear what you have to say.

STATEMENT OF MR. CHARLES JOHNSON, JR., DIRECTOR, INTERNATIONAL 
 SECURITY ISSUES, INTERNATIONAL AFFAIRS AND TRADE, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Johnson. Thank you, Mr. Chairman. Good afternoon, 
Chairman Poe, Ranking Member Keating, and members of the 
subcommittee. I am pleased to be here to discuss preliminary 
observations from GAO's ongoing review of the evolution and 
management of the State Department's Counterterrorism Bureau.
    My statement submitted for the record provides preliminary 
information on three issues. First, how the Counterterrorism 
Bureau's resources have changed since 2011; second, the extent 
to which the Counterterrorism Bureau has assessed its 
performance; and third, the Counterterrorism Bureau's 
coordination within State and with other government entities on 
efforts to counter violent extremism and terrorist financing.
    Before I delve into the three issues, I would like to note 
that terrorism and violent extremism as demonstrated by the 
actions of ISIL, Boko Haram, al-Qaeda and AQ affiliates remain 
a top national security priority and continue to pose a threat 
to the United States and other nations. In 2010, the results of 
the first Quadrennial Diplomacy and Development Review, known 
as the QDDR, directed by the Secretary of State at the time, 
highlighted the global terrorist threat and among other things 
recommended that the Office of the Coordinator for 
Counterterrorism be elevated to a bureau. According to the 
QDDR, elevation of this office to bureau would, among other 
things, enhance State's ability to counter violent extremism, 
enhance efforts to build foreign partner counterterrorism 
capacity, and enable more effective coordination with other 
agencies.
    As for the first issue, how the Bureau's resources have 
changed--and if I can ask if the figure, I have a figure to be 
projected. Our preliminary analysis shows that the 
Counterterrorism Bureau has received annual increases in 
authorized full time equivalent staff levels since Fiscal Year 
2011, as the figure shows, but they have continued to face a 
staffing gap every year.
    As you can see, the number of authorized FTE positions 
increased from 66 in Fiscal Year 2011 to a high of 96 in Fiscal 
Year 2015, but over that same time period the percentage of 
unfilled FTE positions fluctuated slightly. As the chairman 
noted, it has averaged about 20 percent a year, and we can say 
that the range was 17 to 23 percent with 2015 being the 23 
percent. These vacancy gaps have included both staff level as 
well as management level positions. I would like to note that 
the Bureau recently took some action to close the gap, and they 
have told us recently in our preliminary review that they are 
down to 10 FTE vacancies as of the end of May 2015.
    Next concern, the extent to which the Counterterrorism 
Bureau has assessed its performance. Our preliminary analysis 
has found that while the Bureau has utilized various means to 
assess some progress, it has not established time frames for 
addressing open recommendations resulting from completed 
program evaluations. Specifically, the Bureau as required has 
established indicators and targets for each of its foreign 
assistance goals and has reported results achieved toward each 
indicator.
    Since its elevation to a Bureau in Fiscal Year 2012, as the 
chairman noted in his opening remarks, the Bureau has also 
completed four evaluations of the counterterrorism related 
programs that it oversees. These evaluations resulted in 60 
recommendations. Our preliminary analysis shows that the Bureau 
has only addressed about half of those recommendations and 
lacks time frames for when it will address the remaining 
recommendations, which are at about 32. Without specific time 
frames for addressing recommendations, we have previously noted 
that it may be more difficult, and in particular for this 
Bureau, to ensure programmatic improvements are made in a 
timely manner, but more importantly that some of the 
implementing partners who have been tasked with closing some of 
these recommendations are held accountable for doing so.
    Finally, with respect to the Bureau's coordination efforts, 
our preliminary analysis indicates that the Bureau's 
coordination within State and with other Federal agencies on 
countering violent extremism and countering terrorist 
financing, or those two programs in particular, generally 
reflect the key practices for effective collaboration. For 
example, coordination on policy and programming has allowed for 
the development of joint projects and helped to avoid some 
overlap with existing and planned initiatives between the 
Counterterrorism Bureau and others.
    In closing, Mr. Chairman and members of the panel, I would 
like to thank the subcommittee for the opportunity to testify, 
as well as the GAO staff who are sitting behind me. Jason Bair, 
Andrea Miller, Esther Toledo, David Dayton, Mason Calhoun, and 
Lina Khan who worked on this engagement; and second, note that 
we anticipate issuing our final report on the evolution and 
management of the Counterterrorism Bureau in July of this year.
    This concludes my statement. I would be happy to answer any 
questions you may have at this time.
    [The prepared statement of Mr. Johnson follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     ----------                              

    Mr. Poe. Thank you, Mr. Johnson, appreciate your testimony. 
The Chair recognizes itself for its questions. The 
Counterterrorism Bureau, what is it supposed to do? Explain it 
to the average American, which I would suspect many Americans 
don't even know the Bureau exists. What is it supposed to do? 
What is the goal of the Counterterrorism Bureau?
    Mr. Johnson. Well, I would ground it in the overall goal 
being that the Bureau itself along with the State Department 
helps coordinate our overseas efforts to combat terrorist 
threats, those who may harm our foreign partners as well as the 
U.S., so the primary role is to provide assistance. One of the 
things that they emphasize is try to build our foreign 
partners' capacity so they can address that threat.
    Mr. Poe. So we give money to foreign countries to help them 
fight terrorism. Is that what you mean by assistance?
    Mr. Johnson. Yes. We give assistance in terms of our 
technical assistance or we may provide some training to help 
them sort of counter violent extremism. Or, for example, a good 
example would be the ATA programs, the Anti-Terrorist 
Assistance program where we do fund training programs in some 
small types of equipment to allow them to sort of do 
investigative law enforcement activities so they can sort of 
determine the results of a terrorist attack or things of that 
nature. We are trying to build up their skill sets and capacity 
to address the issue or to even prevent the issue before it 
happens.
    Mr. Poe. And then the Bureau is supposed to evaluate that 
assistance?
    Mr. Johnson. Absolutely. It is critical, and we have said 
this before in many of our reports, that State Department and 
particularly this Bureau undertake evaluations. The benefit of 
doing evaluations is that you can learn from those experiences 
in whether, where you put your assistance is that a best 
practice? Is that something that you can model in another 
region or another country? So definitely evaluations are 
critical. They should be done routinely, and you should learn 
lessons from those. And you should also take steps to, based on 
recommendations that come out of that, timely implement those 
recommendations.
    Mr. Poe. To see if we are actually helping prevent 
terrorism, whether the--just to give an example, hypothetical--
the money, let us use money, we give to a country making sure 
it doesn't go into the pockets of corrupt officials but it 
actually is working to train somebody to make sure that they 
can fight terrorism. And so we want them to evaluate all of 
these programs that they start up.
    Mr. Johnson. We definitely think it is critical that the 
State Department does evaluate these programs, and they 
established a policy initially in 2012 in response to some of 
our previous recommendations and concerns from the Congress to 
do so. They have updated that in 2015. They are expected to do 
somewhere from two to four in a 2-year window. This bureau, 
actually, I would compare them to other parts of the State 
Department, have actually done more than some of the other 
bureaus and offices within the State Department.
    Mr. Poe. So we partner with 53 countries, correct?
    Mr. Johnson. Correct.
    Mr. Poe. And how many of those countries has the Bureau 
evaluated the program or the assistance to those countries?
    Mr. Johnson. Well, I would highlight there were two ATA 
evaluations that were done.
    Mr. Poe. Now ATA, what does that mean?
    Mr. Johnson. The Anti-Terrorism Assistance program where as 
I mentioned earlier we are providing assistance for 
particularly law enforcement individuals to combat terrorist 
threats.
    Mr. Poe. Now are those two assistance programs in two 
countries or are those two programs that are spread across the 
53 countries?
    Mr. Johnson. Well, it was not the 53. They have only done 
two of the 53. Algeria, I believe, is one, and I believe the 
other is Morocco, and Bangladesh. They haven't really done many 
in terms of countries.
    Mr. Poe. We have done two out of 53?
    Mr. Johnson. Correct. Well, they have done four but two of 
them were ATA evaluations.
    Mr. Poe. Okay, they have done four out of the 53.
    Mr. Johnson. Correct.
    Mr. Poe. So the other countries, the other 49 that we are 
giving some form of assistance to combat terrorism, the Bureau 
hasn't evaluated whether we are doing a good job with that 
assistance or it is not a good job.
    Mr. Johnson. We are not aware of any evaluations since they 
have been a bureau.
    Mr. Poe. Now why haven't they done that according to your 
investigation?
    Mr. Johnson. That is something we hope to address in our 
final product. We have looked at plans. They have had some 
plans underway to do evaluations, they have reset some of those 
plans.
    One of the other things I would like to point out, given 
that countering violent extremism is one of the priorities, one 
of the things we have looked at, they have done no evaluation 
of the efforts to counter extremism. They have had some 
previous plans which they discontinued. We are hopeful that 
going forward once they finalize their 2015 plans that we will 
get a better indication and be able to provide you with that 
information.
    Mr. Poe. So the vast majority of the countries that we want 
to help fight terrorism overseas, we don't know what they are 
doing with the assistance because they haven't been evaluated.
    Mr. Johnson. Well, they have not been evaluated----
    Mr. Poe. I didn't say that very tactfully, but we don't 
know what the assistance is doing because they haven't been 
evaluated. But in your study yet from the GAO, you haven't 
determined why they haven't done those evaluations which I 
agree with you are vital?
    Mr. Johnson. Yes, and let me just distinguish a different 
point here, because one they have done as I said earlier, with 
respect to some of the particular foreign assistance efforts 
they have developed indicators and targets for those so they do 
have data. Unfortunately I can't disclose that because it is 
considered sensitive, but I can classify it in terms like a 
number of individuals trained. But independent evaluations they 
have only done four.
    Mr. Poe. Well, they did three of them in 2012 and they did 
one in 2013. They haven't done any in 2014 and haven't done in 
any 2015. Is that a fair statement?
    Mr. Johnson. That is a fair statement.
    Mr. Poe. So the question still lies why haven't the 
evaluations been done? And the GAO is going to eventually 
address that and get that back to us?
    Mr. Johnson. We will hopefully, yes, drill down deeper on 
that and provide that in our final report in July, to the 
extent that the State Department is in a position to finalize 
its plans.
    Mr. Poe. Thank you, Mr. Johnson.
    Mr. Johnson. Sure.
    Mr. Poe. The Chair will yield to the ranking member, Mr. 
Keating from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. You mentioned the GAO 
found preliminarily that the Counterterrorism Bureau's, quote, 
on coordination with the State and other Federal agencies on 
countering violent extremism and counterterrorism finance 
programs generally reflects key practices for collaboration. 
Could you go a little more into detail on that? Did you 
conclude then that the CT Bureau's coordination, for example, 
NCTC or Homeland Security or the Treasury Department, was 
generally effective?
    Mr. Johnson. Well, we did, and there are seven key 
practices that you look at in terms of collaboration. It is 
outcomes and accountability is one of them. I will just 
highlight a few. Having leadership things defined, resources 
devoted toward the effort, clear roles and responsibilities, 
that is just four of the ones I am highlighting. We looked at 
six of the seven and we asked general questions in terms of all 
the partners and stakeholders that would be involved including 
the ODNI and others, Department of Justice, DHS. No one had any 
critical concerns with respect to the coordination with the 
Counterterrorism Bureau. Things seem to be working pretty 
smoothly or much better in that area.
    There was a slight concern with respect to some of the 
efforts in terms of the working group that they had established 
to deal with terrorist financing. Some concerns were raised 
there because that group was disbanded and they are in the 
process of reassessing the way forward with that. So they have 
been doing that on an ad hoc basis which has given some folks 
some concerns, particularly in the----
    Mr. Keating. What was the coordination? Where was it 
lacking on the financing?
    Mr. Johnson. Well, it wasn't that it was lacking. They used 
to have a formal mechanism that they would go about in terms of 
trying to sort of coordinate with the Treasury and others in 
terrorist financing, and that working group was put on hold or 
disbanded until they reassess that and decide the way forward 
on that. So they are doing it informally right now. We are 
looking forward to getting an update on the direction that they 
will take and provide that in our final report.
    Mr. Keating. Yes, I would be curious to see that because 
that is one of the critical areas that we have to key in.
    Mr. Johnson. And I would note some of the other work we are 
doing particularly for this subcommittee as well, we are 
looking at the efforts to coordinate on foreign terrorist 
organizations, the designation of them, and our results on that 
show that the coordination is going pretty well including with 
the intel community, ODNI in particular.
    Mr. Keating. I understand that the CT Bureau's own 
evaluation of its programs since 2012 resulted in 
recommendations, 60 of them I recall.
    Mr. Johnson. Correct.
    Mr. Keating. And the Counterterrorism Bureau has 
implemented about half of those recommendations, 28 out of 60. 
What is the status of the other 32 recommendations and is the 
CT Bureau in the process of implementing them?
    Mr. Johnson. Well, in terms of specific status, 
unfortunately, I can't discuss that. I think the next panel may 
be able to. We were told the information on the status is 
sensitive but unclassified. I would tell you in terms of 
numbers there are 32. Four have been put on hold and 28 are 
currently still open and have not been closed. But the State 
Department panel can probably give you more details if they are 
willing to share it.
    Mr. Keating. Well, okay. If you can't comment directly on 
what those programs are, you could perhaps help us in the fact 
that why you think there has been that delay in implementing 
them, just generically.
    Mr. Johnson. Well, in terms of a delay, I mean, I would say 
in terms of, again we are talking about 60 recommendations from 
the evaluations that were done, the four independent 
evaluations. There was also, I throw out some other things. GAO 
has some open recommendations that we have with the State 
Department dealing with counterterrorism related issues that 
remain open.
    There are also recommendations from the IG report that was 
done in 2012. There were 13 recommendations made. They actually 
have closed 10 of those 13. There are three of those still 
open. One in particular, as I talked about earlier, the need to 
coordinate on the ATA program. That is an outstanding 
recommendation where they were looking for the two entities 
that have a memorandum of understanding or agreement that has 
yet to be addressed.
    So, I mean there are a lot recommendations that the 
Counterterrorism Bureau and State Department need to address. I 
am not sure of the rationale or the reason why there has been a 
delay or why they haven't done it. But best practices as we 
model and as we do in GAO, we update the status of all of our 
recommendations throughout the year, and more so we have a time 
frame that we expect to have them all closed and fully 
implemented within 4 years, if possible, and we will take 
action routinely to update that. That is sort of a best 
practice that we follow that hopefully the State Department, as 
it is moving forward in terms of completing evaluations and 
followup on recommendations, will model some of those 
practices.
    Mr. Keating. Great, thank you. You have already addressed 
the issue, the third main issue I had for you regarding full 
time employees and how that was done. So I thank you for doing 
that and I yield back.
    Mr. Johnson. Thank you, sir.
    Mr. Poe. Thank the gentleman from Massachusetts. The Chair 
recognizes the gentleman from California, Mr. Sherman.
    Mr. Sherman. You seem to be switching from a combating 
violent extremism to preventing violent extremism, so instead 
of just hitting somebody who has already got a gun, prevent 
somebody from taking up a gun. A natural part of that is our 
broadcasting efforts. To what extent does this agency 
coordinate with our broadcasting, and does your report focus on 
the fact that our broadcasting to the Muslim world is 
characterized by weak content, weak language coverage, that is 
to say they only broadcast in some languages not others, and 
sometimes a weak signal?
    Mr. Johnson. Yes, we did not specifically look at in detail 
that issue. We would be happy to undertake----
    Mr. Sherman. But does the agency coordinate on that or is 
it off doing its thing to try to persuade people not to take up 
violent extremism while the broadcasting unit is off doing its 
thing? What is the level of coordination?
    Mr. Johnson. Yes. It is an independent operation within the 
State Department. It is not coordinated with the 
counterterrorism unit from what I understand. I am aware that 
there are efforts by other agencies like the Department of 
Defense and others to also counter violent extremism to 
coordinate on the propaganda issue.
    Mr. Sherman. So the office we created to coordinate our 
anti-terrorism efforts is not coordinating, or is not itself 
coordinating with other agencies that have similar goals?
    Mr. Johnson. Well, again I think the panel that is going to 
follow can address that. I do know that they have stood up sort 
of a countering violent extremism unit. It is a relatively new 
unit and it is part of their new structure based on their 
strategic review.
    Mr. Sherman. Okay. Well----
    Mr. Johnson. And so going forward perhaps maybe that is 
something that that unit will focus on.
    Mr. Sherman. To your knowledge, and I know we will talk to 
the next panel, how many of the employees of the agency are 
native speakers of Arabic or Farsi? People who grew up--do you 
have any idea?
    Mr. Johnson. Congressman Sherman, I don't have that 
information either. Maybe----
    Mr. Sherman. Ever meet one? To your knowledge do they have 
one or----
    Mr. Johnson. On the last hearing you guys had where I 
understand that there were none at the time.
    Mr. Sherman. Okay.
    Mr. Johnson. And I don't think that has changed since then.
    Mr. Sherman. And so let us say ISIS was trying to recruit 
people and they had poisoned wells. Naturally, we would be 
appalled by that. We would show a picture of dead Yazidi 
civilians. But we are judging things from our standpoint that 
it is wrong to poison wells and kill Yazidi civilians. Is there 
anybody in this agency that can look at the Qur'an and to see 
whether, as it outlines the proper waging of war, poisoning 
wells is thought to be a good thing or bad, or there is just no 
bother to find out whether what ISIS is doing is a violation of 
Islamic law?
    Mr. Johnson. Yes, unfortunately we did not in this 
particular review take a deep dive on the cultural background 
or the language skill sets of the folks. We have done work 
years ago in the past on that and perhaps that is something to 
look at in the future.
    Mr. Sherman. Well, I think to some at the State Department 
the war against Islamic extremism is just an excuse to get more 
money to hire more of the same kinds of people that they are 
comfortable hiring, doing the same thing they have always done, 
and then to argue that doing anything different than what they 
have always done would be such a clash with their own culture 
that we shouldn't consider it.
    Mr. Johnson. And to that point, Congressman, I would say 
hopefully they will do it better going forward with the new 
structure that has been put in place post the strategic review. 
There were lessons that they can learn, the key is to follow up 
on those evaluations, those recommendations.
    Mr. Sherman. But as far as we know they are not 
coordinating with broadcasting. As far as we know they have no 
native speakers of the relevant languages. And as far as we 
know, their meetings to discuss how to explain to potential 
terrorists that what ISIS and others are doing is wrong can 
make use of only the definitions of right or wrong one gets 
from a Western education and cannot explain or even notice 
which things ISIS is doing are violative of Sunna and Hadith 
and which are not. So we will fund a bureaucracy that has found 
an excuse for its own enlargement and will enlarge itself 
without changing itself. I yield back.
    Mr. Poe. I thank the gentleman. I appreciate your 
testimony, Mr. Johnson. You are excused, or you can stay if you 
want to.
    Mr. Johnson. Will do.
    Mr. Poe. Thank you very much.
    Mr. Johnson. Thank you.
    Mr. Poe. The committee is ready to proceed with its second 
panel. I will introduce the witness for this panel, Mr. Justin 
Siberell, who is the Deputy Coordinator for Regional Affairs 
and Programs in the Bureau of Counterterrorism at the U.S. 
Department of State. He joined the State Department Foreign 
Service in March of '93 and assumed the position in July 2012.
    Mr. Siberell, you have 5 minutes for your testimony, and 
remember we have your testimony already filed so you may 
summarize your testimony in 5 minutes or less. Thank you.

   STATEMENT OF MR. JUSTIN SIBERELL, DEPUTY COORDINATOR FOR 
REGIONAL AFFAIRS AND PROGRAMS, BUREAU OF COUNTERTERRORISM, U.S. 
                      DEPARTMENT OF STATE

    Mr. Siberell. Thank you, Mr. Chairman. I will make brief 
remarks and try to keep them brief. Chairman Poe, Ranking 
Member Keating, distinguished members of the committee, thank 
you for the opportunity to appear before you today. This 
hearing comes at a critical time in our counterterrorism 
efforts. Despite the significant blows to al-Qaeda's 
leadership, terrorist threats continue to emerge propelled in 
particular by weak and in some cases failed governance in key 
regions and escalating sectarian conflict globally.
    We are deeply concerned about the continued evolution of 
the Islamic State of Iraq in the Levant, otherwise known as 
Daesh, not only in Iraq and Syria, but through the emergence of 
self-proclaimed ISIL affiliates in Libya, Egypt, Nigeria and 
elsewhere. Although it remains to be seen what these 
affiliations really mean--whether representative of command 
relationships, commonality of strategic goals or merely 
opportunistic branding--we and our many partners in the 
international community remain focused on degrading and 
defeating ISIL.
    We remain troubled by the now more than 20,000 estimated 
foreign terrorist fighters who have traveled to the Middle 
East, not only for the zeal and unique skills they provide to 
groups like ISIL and the Nusra Front, but for the experience 
they are gaining and the threat they could pose for many years 
to their countries of origin. Over the past year we have seen 
an increase in lone offender attacks to include attacks in 
Ottawa, Sydney, Paris, and Copenhagen.
    ISIL and al-Qaeda are not the only serious threats that 
confront the United States and its allies. Iran remains an 
active state sponsor of terrorism and continues to use its 
Revolutionary Guard Quds Force to train and support terrorist 
groups engaged in terrorist acts and working to propel conflict 
and instability such as Lebanese Hezbollah, Hamas, and 
Palestinian Islamic jihad. I have submitted a longer statement 
as you noted, Mr. Chairman, that includes more detail on these 
evolving threats, and I would ask that it be included in the 
record at this hearing.
    As we look to address these threats and to implement an 
effective response to the rapidly changing global terrorism 
environment, we must broaden our tools and build upon and 
expand our partnerships with key allies. President Obama has 
emphasized repeatedly that we need to foster strong and capable 
partners who can address and disrupt terrorist threats where 
they emerge. The United States needs partners who cannot only 
contribute to military operations, but also detect threats, 
conduct arrests, and prosecute and incarcerate terrorists and 
their facilitation networks. Addressing terrorism in a 
comprehensive fashion, utilizing civilian security as well as 
military intelligence capabilities within a strong rule of law 
framework that respects civil liberties and human rights is 
crucial both for ensuring the sustainability of our efforts and 
for preventing the rise of new forms of violent extremism.
    With the Department of State's Fiscal Year 2016 budget 
request, Counterterrorism Bureau seeks funding to sustain our 
principal counterterrorism programs that form the basis of that 
partnership building. This funding is critical to advance our 
multiyear capacity building goals in key partner countries. 
Focus areas for these programs include building strong 
counterterrorism legal frameworks, improved crisis response, 
aviation and border security, anti-money laundering and 
financial investigations capabilities, and countering violent 
extremist messaging and recruitment.
    At the same time, the Department has requested an 
additional $390 million in the NADR OCO account for the 
Counterterrorism Partnership Fund, CTPF. This would provide the 
Department of State with additional flexible resources to 
broaden our counterterrorism partnership activities. This 
funding would also enable us to develop coordinated capacity 
building efforts with the Department of Defense which received 
$1.3 billion in CTPF funding in Fiscal Year 2015, thus ensuring 
a balanced approach. The additional resources provided by CTPF 
would enable us to increase our law enforcement and other 
civilian efforts to address foreign terrorist fighters, counter 
existing and prevent the emergence of new terrorist safe 
havens, and countering Hezbollah's worldwide activities.
    Mr. Chairman, as you will recall, the Counterterrorism 
Bureau was established 3 years ago upon the recommendations of 
the 2010 Quadrennial Diplomacy and Development Report. We are 
playing a leading role in the U.S. Government's efforts to 
galvanize international commitment and efforts against existing 
and developing terrorist threats.
    The Counterterrorism Bureau has itself evolved even since 
its inception just a few short years ago. We have implemented a 
number of organizational changes over the past year to enable a 
more effective integration of our policy planning, diplomacy 
and program development. We have elevated the Bureau's policy 
efforts on countering terrorist financing and countering 
violent extremism and have invested significantly in improved 
monitoring and evaluation capabilities.
    We believe these changes will enable us to be more 
strategic and effective. The terrorism challenges that we face 
continues to evolve at a rapid pace and we cannot predict what 
the landscape will look like one decade or even 1 year from 
now. However, we believe we can best protect the American 
people and America's interests over the long term by engaging 
in robust diplomacy, expanding partnerships, building bilateral 
and regional capabilities, and promoting a holistic and rule of 
law based approach to counterterrorism and violent extremism.
    The CT Bureau has a critical central role to play in these 
efforts. We appreciate Congress' support as we carry out this 
mission, and look forward to working with you in the year 
ahead. Thank you again for the opportunity to be with you today 
and I look forward to your questions.
    [The prepared statement of Mr. Siberell follows:]
   
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                ----------                              

    Mr. Poe. Thank you for your testimony. The Chair recognizes 
itself for its questions. Let me try to be succinct here. I 
agree with you, terrorism is a bad situation that is taking 
place in the world and it is increasing. There are more 
terrorists than there used to be, they are doing worse things, 
they are hurting more people and the Counterterrorism Bureau is 
supposed to fight that. And you have asked for a budget 
increase of several million dollars. One concern I have is the 
staffing levels of previous budgets, the Bureau is not staffed 
completely. Why aren't you staffing with the money you have 
already got and you are asking for more money--I am going to 
give you all of the questions and then you can answer them. But 
you are asking for money for more purposes.
    The terrorists are doing an excellent job of doing what 
they do. One way is by their use of social media. They raise 
money on social media, they raise recruits on social media, and 
they use it for propaganda purposes, all social media. What are 
we doing to combat that issue specifically? Because social 
media, I mean, they know how to use it, and some of it is 
unlawful but they are still doing it.
    And the other question is, be more specific. What are we 
doing to counter terrorism? Not, we have more resources or we 
are helping agencies. What are we doing? Give me some examples 
of specific things we have done with those 53 countries that 
have helped stop terrorism. So you can take those questions and 
go wherever you want to.
    Mr. Siberell. Thank you very much, Mr. Chairman. I will do 
my best to get through each of those. On the first part of your 
question with regard to our budget request, and you have just 
heard from your GAO colleagues on their report about Bureau 
staffing, I would say that we have had a conversation with them 
about their estimate of our vacancies and we have continued to 
staff up. The Bureau was established just a few years ago. We 
were provided additional positions to build out administrative 
capabilities to function as a bureau different from where we 
were as an office prior to that time.
    So there has been a scaling up of personnel in the Bureau, 
and I think we have kept pace with the addition of those 
resources on an annual basis. The current number of vacancies 
is 11 in the Bureau, 10 of those are under either hiring and/or 
interviewing. And most of those are related to some of the 
reorganizations we have been making that I referred to 
specifically with regard to aligning our programmatic efforts 
along a regional basis in line with our policy objectives.
    So I separate that out from the request you have made with 
regard to our programs and getting into your question about 
what are we doing, some specific things that we are engaged in, 
I will give you one example. The CT Bureau has led the U.S. 
Government's efforts not only on behalf of the Department of 
State but even within the interagency on pulling together a 
strong coalition of countries to address this issue of the 
foreign terrorist fighter phenomenon.
    And this is a global phenomenon. We have 90 countries that 
have contributed foreign fighters to the conflict in Syria and 
Iraq. And we have led interagency delegations to countries 
across Western Europe, to the Balkans, to North Africa, to the 
Gulf States, and engaged in comprehensive diplomacy to push 
those governments to undertake stronger legislative steps to 
initiate prosecutions and investigations. We have funded the 
work of our colleagues at DHS and DOJ to provide assistance in 
the building of prosecutions. We have expanded our watch 
listing and information sharing, again along with our partners 
in the interagency. And those steps have made a real----
    Mr. Poe. Excuse me, let me just interrupt you right there. 
How many prosecutions have there been based upon your agency's 
involvement and with assistance?
    Mr. Siberell. Sir, I would be happy to get you that number.
    Mr. Poe. You don't know?
    Mr. Siberell. I don't have the--we have absolutely had 
prosecutions in Albania as a result of our direct cooperation 
between the Department of Justice and the Albanian authorities. 
And there are other examples of facilitation networks having 
been prosecuted and disrupted as a result of our specific 
assistance in----
    Mr. Poe. So you will furnish the subcommittee the list of 
prosecutions?
    Mr. Siberell. Yes, happy to do that.
    Mr. Poe. Follow-up question while you are finishing up. But 
you haven't evaluated this assistance that you are doing?
    Mr. Siberell. No, I think we evaluate and we certainly 
monitor all of our programs on an ongoing basis. I mean it is 
very important to us that any program that we implement is 
effective. It is very difficult work to build the capacity of 
partners particularly in the counterterrorism field, so we take 
very seriously our responsibility to ensure that our programs 
are effective. And we have ongoing monitoring in addition to 
more extraordinary evaluations that we do through outside third 
parties to ensure that our programs are effective.
    Mr. Poe. The Chair is out of time. I am still concerned 
about the evaluations. According to the GAO you all are not 
evaluating. You say you are. I guess we will just wait for the 
final report. I yield to the gentleman from Massachusetts, the 
ranking member.
    Mr. Keating. Thank you, Mr. Chairman. Not long ago the full 
committee had a hearing on women in counterterrorism, how they 
can better be utilized, mothers, and others there. Any of the 
programs you are involved with involve women in those 
capacities? And how effective are they, if you are?
    Mr. Siberell. Women have a vital role to play in our 
counterterrorism effort principally through our countering 
violent extremism programs. We have sought to build a networks 
of women who are helpful in a couple of different ways, and one 
in particular is in the identification of radicalization at the 
community and local level.
    And so we have engaged in work in Nigeria and in Kenya to 
help build networks of women who have the tools. They are often 
involved in the community already, have roles in leadership in 
their local communities, and are given the tools and the 
training to identify the signs of radicalization.
    Mr. Keating. I would be curious if you could follow up with 
any written material and how they are proceeding as well.
    Mr. Siberell. Certainly.
    Mr. Keating. On the financing side I am having difficulty 
trying to get a handle on the scope of terrorist financing 
through so-called conflict antiquities, stolen antiquities and 
artifacts and religious artifacts from other countries, 
particularly Iraq and Syria. I know in one site there is an 
estimated, one site alone of $37 million that was raised that 
way. Do you have any estimates what that is in scope and 
anything you are doing about that?
    Mr. Siberell. Well, it is significant and I can try to get 
you an answer on our estimates of the scope of the total amount 
of funds, for instance, that ISIL has raised through its 
illegal and criminal sale of antiquities, looted antiquities. 
They have simultaneously, as you well know, on the one hand 
engaged in destruction of priceless antiquities, and also 
engaged in the criminal networks that sell those priceless 
antiquities on black markets in order to raise funding. So they 
are playing both sides of that game.
    Mr. Keating. That would be helpful.
    Mr. Siberell. Yes.
    Mr. Keating. And the chairman of Homeland Security and 
myself have a bill to deal with tightening up homeland security 
on that, so that information would be helpful as well.
    Mr. Siberell. If I could just add that today in Paris, 
Under Secretary Stengel, who is with the delegation as part of 
the Counter-ISIL Coalition meeting, is doing an event drawing 
attention to this issue, the threat to areas of cultural 
significance. Of course ISIL having overrun Palmyra recently 
brings us into very clear focus, so it is something we are 
paying close attention to.
    Mr. Keating. Yes, just a couple of weeks ago I came back 
from Istanbul and toured the airport there and saw 40 million 
people, 40 million trips in that airport alone. And we know 
that that is a major pathway for foreign fighters into Syria 
and an important transit point for looted antiquities and 
smuggling as well. What can we do more, from your perspective, 
I asked them, what can we do more to help with Turkey becoming 
more engaged and involved in helping to stop this?
    Mr. Siberell. Well, the Turks are absolutely vital to our 
efforts to detain, degrade and defeat ISIL. They are the 
through-point, as you noted, for people traveling to that 
region. They are, of course, the through-point and have been 
for some time of the smuggled oil, et cetera. We work very 
closely with our Turkish partners to try to cut off those 
routes. Of course many of them are related to decades old or 
even ancient smuggling networks that are themselves already 
well established criminal networks.
    So it is working with the Turks to provide them information 
that we have to enable them to take----
    Mr. Keating. Are they utilizing that information? I frankly 
didn't see a great deal of implementation.
    Mr. Siberell. Well, I can talk a little bit about the 
efforts the Turks have made in disrupting the foreign fighter 
flow. This has been a very high priority for us and we have 
worked to improve the coordination between Turkey and other 
partners, some of the source and transit countries, and 
particularly European countries, and that has resulted in a 
number of people being arrested, stopped and turned around. Of 
course we still know that people do slip through there and pass 
through, and there have been some very high profile cases 
through Turkey. But Turkey remains a key partner and one we 
have to work with closely on all of these issues.
    If I could just address one thing, sir. One other issue I 
didn't get to was on the women in counterterrorism. Women are 
often the victims of terrorist crimes. And we work with a 
number of groups globally to give capacity to victims' 
organizations to give them the tools and the capability to 
speak out about the crimes they have suffered. Women provide 
very effective voices against terrorism in that regard.
    Mr. Keating. Thank you. I yield back.
    Mr. Issa [presiding]. Thank you. We now go to my friend and 
gentleman from California, Mr. Sherman, for his questions.
    Mr. Sherman. The chair earlier was talking about the 
terrorist use of social media. Does your bureau identify 
postings on social media that are from the terrorists or 
helpful to the terrorists, and do you ask Twitter, Facebook, et 
cetera, to take down those postings?
    Mr. Siberell. We work very closely with the Center for 
Strategic Counterterrorism Communications, which has an entire 
staff devoted to identifying postings by terrorists in specific 
forums, and then more broadly on open forums and pushing back 
against----
    Mr. Sherman. Which social media have been better or worse 
at acting to take down terrorist postings?
    Mr. Siberell. Yes. I think we have found an increased level 
of cooperation generally speaking among the companies.
    Mr. Sherman. It is time to name names.
    Mr. Siberell. Well, we have----
    Mr. Sherman. Okay, is Facebook better or is Twitter better?
    Mr. Siberell. I think all of the companies have been 
attuned to the----
    Mr. Sherman. Are you going to answer the question or are 
you going to dodge it?
    Mr. Siberell. It is hard for me to compare one over the 
other. There has been certainly an increase in cooperation.
    Mr. Sherman. Let us--Facebook has had a much stronger 
policy than Twitter that I don't know whether you didn't say 
that because you don't want to name names or because you are 
just not as closely related to this effort. Let me shift to 
something else. Your bureau has how many employees?
    Mr. Siberell. We have currently all employees all told we 
have a little over 120.
    Mr. Sherman. Okay. How many of them are native speakers of 
Arabic and Farsi and grew up in an Arabic or Farsi culture?
    Mr. Siberell. I don't have that offhand. We do have Arabic 
speakers in our bureau.
    Mr. Sherman. Yes, you have people that have got a bunch of 
Ivy League degrees and learned Arabic out of a book. That is 
not what I asked. To your knowledge you don't have any native 
speakers of those languages who have the culture in their 
bones?
    Mr. Siberell. I think we do.
    Mr. Sherman. You think you do?
    Mr. Siberell. Yes.
    Mr. Sherman. Is it Farsi? Arabic? You want to, you think? 
You don't know? Did you actually try to hire anybody who has 
that as a background or it is just pure serendipity?
    Mr. Siberell. We have a number of employees who do have 
cultural backgrounds that have the spoken----
    Mr. Sherman. Okay, by serendipity you happened to hire 
somebody who may or may not be a native speaker. Is there any--
oh, let us say--and I hope you were listening to the prior 
panel. You are faced with the circumstance where ISIS is 
poisoning wells and you want to be able to know, I hope you 
would care to know, whether that is forbidden or allowed in 
warfare by Islamic law. Is there anybody on your staff or any 
employee of the U.S. Government that you could call for that 
answer?
    Mr. Siberell. We do have employees in the Department of 
State who are familiar with religious texts. We have an office 
of outreach to religious communities.
    Mr. Sherman. But I mean, are these people that have really 
memorized the Qur'an, people who can tell you the difference 
between the Shiite and Sunni Hadith, or are these people hired 
for their media skills who have maybe a passing knowledge?
    Mr. Siberell. Well, there are many people in the Department 
of State who have strong knowledge of the Qur'an, of the 
religious text of the Hadith. There may even be----
    Mr. Sherman. They just happen to know. I mean, look, 
obviously there could be somebody in our Embassy in 
Liechtenstein who just happens to be a practicing Muslim and 
knowledgeable about his own faith. But who would you call for 
that information?
    Mr. Siberell. I think what we have found is that the most 
effective voices in----
    Mr. Sherman. I didn't ask who was the voice. Before you ask 
a voice to speak out, before you know to go to the Islamic 
voices and saying please issue a fatwa against what is going 
on, you have to know which of the activities of ISIS are at 
least arguably violative of Islamic jurisprudence. So who do 
you go to for that?
    Mr. Siberell. Well, I think, we work with partners to 
address----
    Mr. Sherman. In other words you don't have anybody that you 
can name or any office you can name. Is there a single person 
paid by the U.S. Government who is hired because of their 
expertise in the battle we are fighting which is a battle over 
the nature of Islam?
    Mr. Siberell. I think there are many people who have 
expertise in Syria that are employed by the U.S. Government, 
and many at----
    Mr. Sherman. Who would you call?
    Mr. Siberell. Sorry?
    Mr. Sherman. You are on the front line. Who would you call? 
You think there are many people, but is there anybody you would 
call?
    Mr. Siberell. We have----
    Mr. Sherman. You think you would find somebody but you 
don't know who it would be.
    Mr. Siberell. I think, sir, we have resources available to 
us that include----
    Mr. Sherman. Okay. Others have sat there and testified that 
there is not a single person. You are trying to say that there 
is but you don't know who it is, which seems to be confirming--
--
    Mr. Siberell. Well, there is not a job description or a 
board of Islamic scholars.
    Mr. Sherman. Okay. If you wanted to call somebody who had 
expertise in international jurisprudence you have a whole 
office. If you wanted to call somebody who had expertise in 
trade law you have a whole office and you know who to call. It 
would take you a minute to figure out exactly whether to call 
Jack or to call Martha.
    But when it comes to whether or not, for example, poisoning 
wells is violative of Islam you have no idea who to call. There 
is nobody who has been hired because they know the answer to 
that question. And I know there are practicing Muslims who work 
at the State Department who may on, again it may be somebody in 
the Liechtenstein Embassy but nobody whose job it is to answer 
that question. And I yield back.
    Mr. Issa. I would like to follow up on the gentleman's 
question briefly. There are, what, more like 1,000 people that 
work both here and abroad in the Near East section of the State 
Department?
    Mr. Siberell. Perhaps.
    Mr. Issa. There are people with tremendous language skills. 
But let us talk about if you have a cultural question, if you 
want to understand how you combat terrorism by winning over the 
hearts and the minds what is your structure for reaching out 
both within the broad State Department and what your structure 
would be for reaching within civil society here and abroad?
    Mr. Siberell. Well, we have very strong relationships with 
civil society organizations in the United States.
    Mr. Issa. And go ahead and name a couple just anecdotally 
as you go by.
    Mr. Siberell. Well, we have, and I will give you an example 
of where we have worked with Islamic scholars including and 
through our public affairs sections at our Embassies abroad. We 
have engaged with partners including the United Arab Emirates 
Government recently to help to establish a new messaging center 
that will counter message against the perversions that ISIL has 
committed and is----
    Mr. Issa. Using both scholars and imams and the like?
    Mr. Siberell. Yes. Yes.
    Mr. Issa. But back to the gentleman's question, because I 
think Mr. Sherman deserves a full answer. You do have to, at 
times, reach well outside this 120 or so employees to find 
people who have the technical expertise to know whether there 
is a problem and whether you can relate a solution that is 
going to resonate in a particular area of the Islamic world; is 
that correct?
    Mr. Siberell. Yes.
    Mr. Issa. And that process you mentioned overseas. But 
would you touch base a little bit with the Muslim community and 
the community of scholars that exists in the United States? 
Where are some of the resources that--I don't want you to 
embarrass anyone. I don't want you to unfairly recognize 
anyone, but where are some of the places you generally go 
within the structure to find people that have native speakers, 
as Mr. Sherman said, and people who have real understanding of 
what people on the ground think?
    Mr. Siberell. Well, first, if I could describe, we have an 
effort under the Center for Strategic Counterterrorism 
Communications which is a staff of people committed to 
identifying terrorist use of Internet and then counter 
messaging to include messages that challenge ISIS and al-
Qaeda's religious interpretations. And that staff is also an 
interagency staff that is linked into our intelligence 
community and other scholars and has expertise available to it.
    We have, of course, outreach through our office of 
religious affairs, and outreach communications ongoing with a 
number of Islamic as well as other religious community 
organizations throughout the United States. That has been a 
priority of Secretary Kerry in particular to expand this 
effort. And I could speak to them about who some of their lead 
relationships are with and provide that to you.
    Mr. Issa. I would appreciate that. I guess, let me ask a 
broader question for a moment. Having traveled in the region 
for many, many years, one of the worst things you can do is be 
seen as a puppet of the CIA, a puppet of the United States 
Government. How do you engage communities particularly outside 
the U.S. to give their views without their views being 
directly, and in this case I hope unfairly, written as our 
views rather than their independent views particularly as to 
the meaning of the Qur'an?
    Mr. Siberell. That is a very important question and how we 
build relationships with credible voices abroad is absolutely 
vital work. It is sometimes very difficult. The truth of the 
matter is that some of those that we consider to be credible 
voices, those who we are seeking to win the hearts and minds 
of, in other words those who have the potential to be 
radicalized, the vulnerable, often not particularly well 
educated or exposed broadly and culturally, might not consider 
those voices as credible as we have evaluated them to be. So 
this is a difficult one.
    We often also see that some of those who have influence 
with these vulnerable populations, particularly youth, are 
people who espouse ideas and values, frankly, that we could not 
associate ourselves with. But they do stop short of advocating 
terrorism or violence against civilians.
    Mr. Issa. And let me just put words in your mouth for a 
moment, because it might not be something you would say but as 
a member maybe I am freer to say it. You often find yourself 
with people who talk ill of the Zionists, who talk ill of 
Israel or maybe even of Christians, while at the same time they 
are willing to disavow the extremism and the tactics. Is that 
paraphrasing what you might say?
    Mr. Siberell. Well, those would be examples and I would say 
there would be others. I mean there would be views that are 
anti-democratic. There are views that sideline the role of 
women in society. There are any number of views that----
    Mr. Issa. There is a long list, isn't there?
    Mr. Siberell. Yes, it is.
    Mr. Issa. And I am going to close with this quick question. 
You don't get to pick people because they meet all of America's 
standards, just the opposite. You have to pick and choose 
people on perhaps as few as one issue, the issue of violence 
and terrorism, leaving aside that we may disagree on a host of 
other values between our two countries.
    Mr. Siberell. That is unfortunately often the case, yes.
    Mr. Issa. Thank you. And it is now my pleasure to recognize 
the gentle lady from Illinois, Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chairman. All of us here know 
that we live in a very dynamic and challenging times with 
respect to global security. From Benghazi to Boston we have 
been tragically reminded of that truth. As such, our diplomatic 
efforts, defense systems and intelligence capabilities must be 
as vibrant as the security threats that we face.
    As a representative of a major American city, Chicago, that 
bad actors and terrorists often seek to target, I know the 
importance of counterterrorism and maintaining a secure 
homeland. Our best counterterrorism cooperation results in the 
gathering and sharing of intelligence and our ability to 
swiftly and effectively arrest, thwart and prosecute 
terrorists.
    My question is what role, if any, does counterterrorism 
have with respect to engaging foreign countries and groups 
suspected of attempting to illegally access U.S. Government and 
private sector computer systems for purposes of intelligence or 
economic espionage?
    Mr. Siberell. Thank you very much for the question. This is 
an emerging threat we face, related to cyber terrorism groups 
that systematically seek to undermine and penetrate the U.S. 
Government's computer systems in an effort to develop a greater 
understanding and intelligence on our own vulnerabilities, and 
this is an area that we are working very closely with our 
partners in the interagency to defend ourselves against and 
ensure we have robust systems in place.
    I would also say, however, that the terrorist groups are 
also using publicly available information as we know. 
Researching, for instance, the protection and security around 
infrastructure in the United States, and what I am getting at 
is not only are the government systems vulnerable, but other 
systems and available information can be exploited by terrorist 
groups.
    And this is why it is so important that we protect 
ourselves in particular against this lone wolf phenomenon, 
which we are seeing more and more of, where some of these 
groups have more difficulty sending operatives to the United 
States or to Western Europe because of enhanced border security 
measures that have been put in place since 9/11, but what they 
do therefore is they seek out those who are already here to 
conduct attacks.
    And so there is an active effort underway by a number of 
these groups we know to radicalize and to encourage attacks 
among individuals in this country, and so we need to be very 
careful to protect ourselves against that vulnerability. And 
our colleagues in the domestic law enforcement and homeland 
security community are seized with particular vulnerability.
    Ms. Kelly. Do you feel you have enough resources to do your 
job?
    Mr. Siberell. Well, as part of our budget request we have 
requested an increase for some of our partnering activities. 
This gets at building the capacity of partners to address the 
threats that they face in their own region, neighborhood, and 
country. And this is very difficult work. It does require a lot 
of resources. We think we could use more resources, we could 
scale up some of that partnering activity.
    This, for instance, as an example, we have a very dire 
situation in Libya which is emerging more and more as a safe 
haven for terrorist activity. We have a very close partner 
right next door, Tunisia, which is a country struggling to move 
forward in a positive and progressive and democratic way. They 
need our help to build up their capacities. Not only their 
military and intelligence capacities but their civilian law 
enforcement capacities, their ability to strengthen their own 
legislation. They need guidance on how to do that. They need 
help with investigations and in forensics and applying the 
whole of government approach to counterterrorism that we have 
taken. So that is one small example where we would seek to 
increase our assistance to a particular partner who needs our 
help at this moment.
    Ms. Kelly. Okay. Thank you very much.
    Mr. Siberell. Thank you.
    Ms. Kelly. I yield back my time.
    Mr. Issa. Thank you. And I am going to close, but I want to 
very quickly just run through a couple of things that were on 
the committee's ask, and I think it is an open-ended question 
so hopefully you are ready for it. The majority of the $300 
million going to Counterterrorism Partnership Fund as of right 
now are unspent, or at least not fully committed. Can you give 
us some specifics of the process for your decision making and 
some of the areas you expect those funds to be disbursed into?
    Mr. Siberell. Sure. Thank you very much for the opportunity 
to lay that out and to be clear that we are requesting this 
$390 million in Fiscal Year 2016 funds. The State Department 
has not received funds under the CTPF previously, Fiscal Year 
2015 included. The DoD did receive a $1.3 billion appropriation 
for CT partnership, the State Department did not.
    So we are seeking for '16, the $390 million, and we have 
broken that down----
    Mr. Issa. Okay, and they may be talking about the earlier 
money but they parenthesized the 390. So why don't you answer 
both sides, the DoD and how some of that is going, briefly, and 
then tell us a little bit more about what you would do with the 
390, prospectively, because the earlier question, which I 
skipped, asked about the $493 million for Fiscal Year 2016. 
They had a number of those and I skipped over it and went to 
the second question. But please touch on both because I think 
it is insightful of what you have spent, where it has been 
committed in concert with DoD.
    Mr. Siberell. Happy to. The concept here is to build up 
partners as I noted in the previous response to have the 
capability across a range of civilian capacities so it would 
match up against building parallel capacities on the military 
and intelligence side, and that is the work, generally 
speaking, of our Department of Defense colleagues.
    So whereas we would build, let us say, a capability within 
a ministry of defense to provide a focused counterterrorism 
response capability, we also want to ensure that the civilian 
side of the ledger is also addressed in terms of being able to 
incarcerate anyone that those forces might detain. The ability 
to prosecute those defendants or detainees. The ability to 
address shortcomings in border security or counter 
radicalization. There is a whole suite of capabilities we would 
seek to build on the civilian side.
    Now with respect to the $390 million, we break that down 
into three principal categories. Sixty million dollars of that 
would go toward our efforts building on our current efforts to 
strengthen, as I noted earlier, capacities of governments to 
deal with the specific phenomenon of foreign terrorist 
fighters, those who are traveling to Iraq and Syria and some of 
whom are actually on their way back to their home countries. 
Another $20 million would go specifically toward activities 
against and aimed at dismantling and disrupting Hezbollah's 
global network and activity particularly in the criminal sphere 
to raise funds that it uses in its activities in Lebanon and 
elsewhere, in Syria, et cetera.
    Mr. Issa. But again it would be money to government 
agencies you are working with?
    Mr. Siberell. Some of that money would go to our partners 
in the interagency. So with Hezbollah, for instance, we have an 
initiative underway to strengthen our work with European law 
enforcement agencies to build joint investigations. And so a 
lot of that money would go to the FBI, would go to the 
Department of Justice, and Homeland Security, as an example. 
And then the bulk of the funds, $310 million, would go toward 
the addressing current and then working to prevent the 
emergence of new terrorist safe havens.
    So looking at East Africa as an example, bolstering our 
partnerships with countries on the periphery of al-Shabaab in 
Somalia, giving them the capability to better address the 
threat that is emanating from there; working with the Lake Chad 
Basin countries to address the threat coming from Boko Haram 
emerging out of northeast Nigeria and with the Nigerian 
Government itself; and noting earlier, the work we would like 
to do with Tunisia, but also with Libya's other neighbors, 
Niger, Egypt, et cetera, to help bolster their capabilities 
against those threats. So those would be examples.
    Mr. Issa. Okay. And I want to briefly go to one other 
thing. Earlier when you were discussing Turkey and their 
support late in the Saddam era, 60 Minutes, I believe it was, 
just went ahead and showed us an aerial view of thousands of 
trucks, tanker trucks, small tanker trucks lined up in a row 
for miles and miles taking fuel from Iraq, clandestinely, into 
Turkey. The same was happening in Jordan. The same was 
happening through a pipeline into Syria. And the government 
pretended like we were doing something about it, but in fact if 
60 Minutes can get you a video of it obviously it was not a 
secret.
    Today isn't there a large amount or at least an amount of 
oil that are going right through Turkey? Driving right down 
those same roads in plain sight of both us and the Turks 
delivering oil from the east to the west and could have come 
from nowhere legitimately. Isn't that true?
    Mr. Siberell. There is oil smuggling that continues. We 
have worked to try to disrupt it even at the source. Some of 
our coalition air strikes have been against those small oil 
refineries and the distribution points, but it is the case that 
oil smuggling does continue.
    Mr. Issa. And when the trucks are on the road they are off 
limits to fire on. We have to get them in other places, and 
clearly the Turks are not going to pull over Turkish trucks and 
take away their oil even when it clearly comes from a 
clandestine source.
    Mr. Siberell. Well, as I noted we are trying to work very 
closely with the Turks, the Kurds and others to stem that flow 
of smuggled oil.
    Mr. Issa. Thank you. We now recognize the gentleman from 
Pennsylvania, Mr. Perry.
    Mr. Siberell. Thank you.
    Mr. Perry. Thank you, Mr. Chairman. Sir, I am sorry I 
missed most of the meeting but I do have a couple questions 
which I think are germane and go to monitoring in particular. 
The Bureau has been criticized by some in Congress for the 
under funding of the monitoring and evaluation of its programs 
and the general guideline is 3 to 5 percent of program 
resources. So my question in that vein is how much did the 
Bureau spend on monitoring and evaluation in 2013 and '14?
    Mr. Siberell. I can get you the specific figure, the amount 
of money we spent in those 2 fiscal years. We are monitoring 
and evaluation activities, in line with the Department's 
guidelines on monitoring and evaluation. I just want to say 
that all of our programs are monitored on a constant basis and 
we want to get this right. We have no interest in perpetuating 
programs that are not seeing results, and this is very 
difficult work in capacity building.
    What you may be referring in the 3 to 5 percent range are 
some of the evaluations we have done which are bigger, in some 
cases bringing in outside parties to evaluate larger programs. 
And then we can give the list of those evaluations we have 
completed and the total cost we have put into this.
    Mr. Perry. So if you know the cost then you should know the 
amount of each program that has been evaluated, right, or if 
you know the cost, I mean, it is a certain percentage. The 
program costs X amount, we are spending this much to monitor, 
right. So we should know that, right? I mean that should be 
readily available if----
    Mr. Siberell. We can get you that.
    Mr. Perry. You do monitor that, correct?
    Mr. Siberell. Yes.
    Mr. Perry. Now according to my notes, so correct me if I am 
wrong, only two of 53 countries where the Bureau is doing anti-
terrorism assistance have been evaluated since 2010. Is that--
two of 53 seems low. Is there some reason it is low? Is it not 
low? Why is that correct or why isn't that correct?
    Mr. Siberell. Okay. Well, thank you for the opportunity to 
clarify. I think it is both correct and incorrect, if I might. 
We have ongoing monitoring of every one of our country ATA 
programs, and every 2 to 3 years there is an assessment done of 
the results of previous training and what the requirements are 
for the coming period.
    When you are referring to the two programs, specifically 
what we did is we subjected two specific country programs to a 
separate outside evaluation. That was in Morocco and in 
Bangladesh. And in those two countries we brought in a third-
party evaluator to look at the program, the life span of it, 
and I can tell you that we have had very, very important 
conclusions from those evaluations.
    In Morocco, as an example, we determined that the Moroccan 
Government has achieved at such a level of capacity and 
capability through that training that we are now working with 
the Moroccans to actually train third-party countries. And we 
are putting the Moroccans together, for instance, with 
countries like Mauritania and other Sahel countries so that the 
Moroccans can actually do that training. And that was the 
result of the conclusions of that evaluation.
    So it is true that two specific country programs----
    Mr. Perry. So you are saying that those are two that were 
with a third-party evaluation?
    Mr. Siberell. But every ATA program has an ongoing process 
of monitoring and assessment that is done in combination 
between the Counterterrorism and the Diplomatic Security 
Bureaus. Every 2 to 3 years every program is evaluated in that 
way.
    Mr. Perry. So this stuff is expensive, $233 million in 
foreign aid to the Counterterrorism Bureau, will all those 
dollars be evaluated? I think about the question that the 
gentleman, the chairman just asked, and it seems obvious to 
Americans, right. Counterterrorism, it has got to be funded. 
Terrorism is funded by something.
    So if you have got trucks driving across the desert--I have 
been to the desert, it is kind of a wide open territory for a 
lot of it--and that is the source of income for the terrorists, 
it seems obvious. If we are spending $233 million, like you 
don't need a whole lot, you don't need to know a lot to know 
that right there is a target. I don't know if it has to be 
bombed or if it can be serviced with small arms or medium arms. 
I don't understand why we let that target continue to exist, 
quite honestly.
    And it is expensive, $233 million. It seems to me that we 
have wasted 233 or a portion of $233 million when the target is 
sitting out in the open and you say it is being smuggled. 
People hear the term ``smuggling'' they think about something 
being stolen away in the night under the cover of darkness and 
deception. This is out in the open in the middle of no-man's 
land and we let it drive from this point to that point 
unfettered. What am I missing?
    Mr. Siberell. Well, the amount of money you are referring 
to is a global pot and it addresses a number of different 
areas. Let me focus in on some of the money we do dedicate 
toward counterterrorism finance work, and that is where we 
engage our partners in building up their financial intelligence 
units, their central bank, their ability to monitor funds that 
flow through the banking system. These groups, each of them, 
raises money in different ways. ISIL raises the majority of its 
money, we believe, through extortion and through criminal 
networks ongoing in the places that they control. So in cities 
like Mosul or in Raqqah they have the extortion networks and 
the ability to raise, effectively, taxes from the local 
population.
    Mr. Perry. With your indulgence, Mr. Chairman. I appreciate 
that and I think you are right. It is not genuine to say that 
the $233 million were spent counterterrorism operations with 
ISIS. But how do you quantify success? So it is my 
understanding that ISIS raises about $2 million a day. A 
certain amount of that comes from oil revenue, smuggled oil, 
illicit oil sales.
    How do you connect the--we spent a portion of this $233 
million on figuring out their financial network. Once we have 
the information, isn't success when we have actualized on that 
information and destroyed the funding source, i.e., the truck 
driving across the desert full of oil into and through Turkey? 
Isn't that, or don't we care? Once we have the information we 
don't put the two together?
    Mr. Siberell. No, I think cutting off the sources of 
funding one by one, whether it comes from oil or antiquity 
smuggling or extortion or taxes from ISIL controlled territory, 
these are things we have to address each of its own. So it is 
very important to get at the source of the funding for the----
    Mr. Perry. Do you ever see where the information that you 
got, the intelligence you received through the counterterrorism 
operations led to the servicing of the target, the destruction 
of the target, the destruction of the source of funds; do you 
ever see that?
    Mr. Siberell. Well, absolutely. We have taken----
    Mr. Perry. Where is that listed? Can I see where American 
taxpayers spent this much money to find out this information 
which led to this action which led to this outcome? How can I 
see that as a taxpayer and as a Member of Congress and a 
citizen?
    Mr. Siberell. Thank you. Specifically that issue probably 
is a question for DoD, but we have taken strikes against the 
oil installations in Iraq and in Syria controlled by ISIL. We 
have taken strikes against distribution points. So there have 
been very specific responses to available intelligence in that 
sector in particular.
    Mr. Perry. Okay. Mr. Chairman, I will yield back. But in 
response just to that we will ask DoD, but I will tell you 
having served for a fair amount of time of my life, if DoD 
wants to hit the target and is allowed to hit the target and is 
resourced adequately and missioned appropriately there will be 
no target left. If we want to end this target it will be gone, 
and my concern is that this actionable intelligence hasn't been 
used to the fullest. With that, Mr. Chairman, I yield back.
    Mr. Issa. Thank you. This concludes all of our questions. 
You have agreed to a number of things you would respond to for 
the record.
    Mr. Siberell. Yes.
    Mr. Issa. Would you mind additional questions if they are 
received within the next 3 days to be added to that response 
list for members who are not here?
    Mr. Siberell. We would welcome them, Mr. Chairman.
    Mr. Issa. So thank you. With that we stand adjourned.
    Mr. Siberell. Thank you very much.
    [Whereupon, at 3:28 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
                        <n-iden-3><pound><box>\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>
</pre></body></html>
